  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

GAS                   Government Auditing Standards
USSOCOM               U.S. Special Operations Command
                                                                        August 21, 2002



MEMORANDUM FOR INSPECTOR GENERAL, U.S. SPECIAL OPERATIONS
               COMMAND

SUBJECT: Review of the Quality Control System at U.S. Special Operations Command
         Inspector General Audit Division (Report No. D-2002-6-008)


      We are providing this report for your information and use. We considered
management comments on a draft of this report when preparing the final report.
Management comments conformed to the requirements of DoD Directive 7650.3.

         Our review of the Audit Division was in response to a command request to ensure
compliance with Government Auditing Standards (GAS) that require, “Organizations
conducting audits in accordance with GAS should have an external quality control review
at least once every 3 years by an organization not affiliated with the organization being
reviewed.”

Background. The Audit Division provides the Commander, U.S. Special Operations
Command (USSOCOM) with professional auditing services to safeguard, account for,
and ensure the proper use of special operations forces assets in accomplishing the
USSOCOM mission. The Audit Division reports to the USSOCOM Inspector General
who reports to the Commander, USSOCOM. The Deputy Inspector General, Audit
Division, is the supervisory auditor over three auditors. The Audit Division provides
audit support for four special operations commands that report to the Headquarters,
USSOCOM: Air Force Special Operations Command, U.S. Army Special Operations
Command, Naval Special Warfare Command, and the Joint Special Operations
Command. Appendix A contains a summary of the Audit Division policy and
procedures.

Quality Controls Review Objective. The objective of the review was to determine
whether the internal quality control system of the Audit Division was in place and
operating effectively to provide reasonable assurance that established policies,
procedures, and applicable auditing standards were being complied with in the conduct of
its audits. The Audit Division conducted one audit from which it issued one draft and
two final audit reports during October 1998 through February 2002, the period reviewed.

Review Results. The Audit Division has a quality assurance system in place that
provides reasonable assurance that GAS are followed. However, the three reports issued
from October 1998 through February 2002 were not timely for effective management use
and in accordance with the second Government Auditing Standard for reporting on
performance audits.




                                           1
Timeliness of Audit Work. The Audit Division did not issue timely reports to
management during the period October 1998 through February 2002. The second
Government Auditing Standard (GAS 7.6) for reporting on performance audits requires
the auditors to issue a report to make the information available for timely use. The Audit
Division issued a total of one draft and two final audit reports during the period October
1998 through February 2002. Following is a chronology of audit milestones.

   •   In 1998 the Commander, USSOCOM requested an audit of purchase card use
       throughout USSOCOM.

   •   The survey phase on the purchase card procedures was conducted from July 1998
       through July 1999. During audit survey phase, the audit team identifies the
       primary audit objectives and designs an audit approach that will maximize audit
       effectiveness. USSOCOM Directive 36-1 states that while the scope of audit
       survey will vary, a survey will usually take from a week to 3 months to complete.

   •   Because of training, command, and inspection requirements, no work was
       completed on the project from July 1999 to August 2000.

   •   The audit was announced on August 30, 2000. The announcement marked the
       start of fieldwork and site visits to the 12 activities. The original audit plan was to
       review purchase card procedures at all 12 activities and issue one combined
       report. However, as the review progressed, it became apparent that a separate
       report was needed for each chain of command for effective implementation of the
       recommendations. As a result, seven reports will be issued, one for each chain of
       command and one summary report for the Commander, U.S. Special Operations
       Command. At the time of our review, one draft and two final reports have been
       issued. The draft report was issued final on July 22, 2002 subsequent to a draft of
       this report. See Table on page 3.

   •   The audit report phase started once the fieldwork was completed at all
       12 activities in July 2001. Because site visits were not concurrent, and reports to
       the commanders were not issued as the fieldwork at the command activities was
       completed, reports were issued more than a year after work was completed. For
       example, although work reviewed at the first activity was not completed until
       September 2000, 1 year and 4 months elapsed before a draft report was issued on
       January 25, 2002.

In an effort to be consistent in reporting the review, the auditors extracted data at the start
of the review that related to FY 2000 purchases. Because of the extended review period,
data reviewed did not address the most recent purchases and current issues relating to
purchase cards. For example, the auditors visited Special Operations Command Pacific
in June 2001 and reviewed purchases from October 1999 through September 2000. The
data were 9 months old when the review started. Because the data were not current
during the review, the final report that was issued in October 2001 had addressed issues
relating to data that were more than a year old. The following Table provides the
timelines for the three reports reviewed.


                                               2
Appendix A. Quality Control Review Process

Scope

    The Audit Division issued three audit reports between October 1998 and February 2002.
    The 3 reports issued, (1 draft and 2 final) addressed the use of purchase cards at 3 of the
    12 activities visited.


Methodology

    During the week of March 17 to 22, 2002, we conducted a quality control review of the
    audit function for the Audit Division in effect for the period October 1998 through
    February 28, 2002. We used the guidelines and checklists established by the President’s
    Council on Integrity and Efficiency as amended February 2002 to ensure that our review
    was in conformance with GAS. We used the President’s Council on Integrity and
    Efficiency, Appendix F, checklist items relating to performance audits to review:

           •   Staff Qualifications;

           •   Independence;

           •   Due Professional Care;

           •   Quality Control;

           •   Audit Planning;

           •   Supervision;

           •   Evidence and Working Papers;

           •   Internal Controls;

           •   Illegal Acts, Other Noncompliance and Abuse; and,

           •   Reports on Performance Audits.




                                             4
     We adjusted the President’s Council on Integrity and Efficiency guidelines and checklists
     as appropriate to reflect the size of the Audit Division. We considered several factors in
     applying the President’s Council on Integrity and Efficiency guidelines, such as the size
     of the Audit Division, the degree of operating autonomy allowed, and the nature of work.
     In conducting the review, we reviewed the three audit reports issued in the period
     reviewed and associated working papers for the reports.


Prior Quality Control Reviews

Inspector General of the Department of Defense
     The Assistant Inspector General for Auditing completed a review of the USSOCOM
     Internal Review audit function in October 1998. No major deficiencies were reported.

USSOCOM Audit Policies and Procedures
     USSOCOM Directive 36-1, Audit Policies and Procedures, November 2, 1999, provides
     guidance on the operation of audits within USSOCOM. USSOCOM Directive 36-1
     implements DoD Directive 5010.38, Management Control (MC) Program, August 26,
     1996, that requires all DoD organizations implement a comprehensive system of
     management controls to provide reasonable assurance that programs are operating as
     intended and to evaluate and report the adequacy of the controls. To implement an
     internal quality control system, the Audit Division developed a series of checklists to
     review planning, supervision, and reporting. Our review indicated that the checklists and
     a detailed audit program developed by the Audit Division provided an adequate internal
     quality control system as required by GAS and DoD Directive 5010.38.




                                             5
Appendix B. Report Distribution


Other Defense Organizations
 Commander, U.S. Special Operations Command
   Inspector General, U.S. Special Operations Command

Congressional Committees and Subcommittees, Chair and Ranking
  Minority Member
 Senate Committee on Appropriations
 Senate Subcommittee on Defense, Committee on Appropriations
 Senate Committee on Armed Services
 Senate Committee on Governmental Affairs
 House Committee on Appropriations
 House Subcommittee on Defense, Committee on Appropriations
 House Committee on Armed Services
 House Committee on Government Reform
 House Subcommittee on Government Efficiency, Financial Management, and
   Intergovernmental Relations, Committee on Government Reform
 House Subcommittee on National Security, Veterans Affairs, and International Relations,
   Committee on Government Reform
 House Subcommittee on Technology and Procurement Policy, Committee on Government
   Reform




                                            6
United States Special Operations Command
Comments




                     7
Team Members


The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of the
Assistant Inspector General for Auditing of the Department of Defense prepared this
report. Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Carolyn R. Davis
Martin T. Heacock
Delpha W. Martin
Krista S. Gordon
Ashley A. Harris
